HEALY

LLC

154 Grand Street
New York, NY 10013
T: 212.810.0377
F: 212.810.7036
www.healylex.com
Valeria Calafiore Healy
vch@healylex.com

By ECF and Hand Delivery
August 12, 2019
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE: Loop AI Labs Inc. et al. v. Gatti et al, No. 19-59
Dear Mr. Harris:
We represent petitioners Loop AI Labs Inc. et al in the above-referenced petition for a writ
of certiorari, No. 19-59. Pursuant to Supreme Court Rule 15.5, petitioners waive the 14-day waiting
period and respectfully request that the petition and brief in opposition be distributed to the Court
without delay for its consideration. We will submit a reply to the Opposition filed by two of the five
respondents as soon as possible so that the Court will have full briefing well in advance of its
Conference.
Respectfully submitted,

Valeria Calafiore Healy
Counsel of Record for Petitioners
cc: (by email & mail)
Janet Brayer, Esq.
The Law Office of Janet Brayer
Counsel for Respondents Anna Gatti, IQSystem Inc. and IQSystem LLC
Mitchell Mirviss, Esq.
Venable LLP
Counsel for Respondents Almaviva S.P.A. and Almawave S.R.L.

